Audit Report




OIG-12-018
COIN MANUFACTURING: Mint’s Coin Exchange Program Lacked
Proper Controls
November 22, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Background ................................................................................................ 2

  Internal Mint Report ..................................................................................... 3

  Findings and Recommendations .................................................................... 4

      Corrective Actions to Improve Physical Security Were Not
         Fully Implemented .............................................................................. 4

      Other Control Weaknesses Need to Be Addressed ...................................... 6

Appendices

  Appendix     1:     Objectives, Scope, and Methodology ......................................              10
  Appendix     2:     Management Response .........................................................          11
  Appendix     3:     Major Contributors to This Report ...........................................          14
  Appendix     4:     Report Distribution ................................................................   15

Abbreviations

  OIG                 Office of Inspector General
  SAM                 Sales and Marketing Division
  SOP                 standard operating procedures




                      Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)                   Page i
         This Page Intentionally Left Blank




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page ii
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                       November 22, 2011

                       Richard Peterson, Deputy Director
                       United States Mint

                       Referred to as the coin exchange program, the United States Mint
                       (Mint) installed coin machines in its Washington, D.C.,
                       headquarters building where the public and Mint employees can
                       exchange bills and coins at face value for new circulating coins.
                       After the Mint found financial discrepancies in the coin exchange
                       program related to the John Quincy Adams Presidential $1 coin, it
                       conducted an internal review. That review culminated in an internal
                       Mint report entitled Review of Coin Exchange Program Managed by
                       Sales and Marketing (SAM). 1,2 The report identified a number of
                       serious deficiencies in the program’s controls and processes.
                       Because of these serious internal control deficiencies, the Mint was
                       not able to determine whether the $9,264 discrepancy in the John
                       Quincy Adams Presidential $1 coin program was caused by loss or
                       theft.

                       To provide more accountability over the coin exchange program,
                       the internal report included several recommendations to improve
                       controls. Among other things, these recommendations included
                       enhancing controls and security of the vault and coin machines and
                       making timely deposits and reconciliations.




1
  The internal review was conducted by the Mint’s Planning, Budget and Internal Control Division. The
review was prompted by an inquiry by the Treasury Office of Inspector General’s (OIG), Office of
Investigations after the Mint reported the financial discrepancy related to the John Quincy Adams
Presidential $1 coin. OIG investigators found that the coin exchange program generally lacked
comprehensive controls and written policies. As a result, the exact cause of the financial discrepancy
could not be determined.
2
  The Mint issued its final report on December 2, 2010.


                       Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)           Page 1
             The fact that the Mint operated the coin exchange program for
             several years with an absence of proper controls and no
             accountability is a very serious concern. We therefore undertook
             this audit to determine whether the Mint took appropriate actions
             in response to its internal review. Our objectives, scope, and
             methodology are described in more detail in appendix 1.

             In brief, we found that the Mint has either not implemented certain
             recommendations identified in the internal report or needs to
             otherwise enhance its standard operating procedures (SOP) to
             (1) improve its coin exchange program vault security, (2) ensure
             that unused coins are deposited in a timely manner, and (3) ensure
             that coin exchange program reconciliations are performed on a
             regular and timely basis. We are making three recommendations to
             address these matters. Given the prior history and losses
             associated with the coin exchange program, heightened
             management attention is warranted to fully address the
             recommendations in our report and the internal Mint report.

             In a written response, Mint management concurred with our
             findings and provided their corrective actions taken to implement
             the recommendations. We believe these actions are responsive to
             the intent of our recommendations and verified their
             implementation. The management response is included as
             appendix 2.

Background
             The Mint uses its coin exchange program to promote new
             circulating coins such as the Presidential $1 Coins, Native
             American $1 Coins, and the America the Beautiful Quarters. As
             each new coin is introduced, it is referred to as a coin program
             with the unique name of the coin incorporated; for example the
             Yellowstone National Park Quarter coin program. Overall, the
             Mint’s Sales and Marketing manages the coin exchange program.
             The Mint headquarters building has six machines to dispense the
             coins. Three machines are located in the building’s lobby which is
             accessible to the public, and three machines are located in the
             building’s interior space which is accessible only to Mint
             employees. Each new coin program is processed as shown in
             Diagram 1:

             Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 2
Diagram1: Coin Exchange Program Process Flowchart




Source: U.S. Mint SOP, Coin Machine Order Processing and Return of Circulating Coinage, January 20,
2011, and Mint staff interviews.

                      As noted in the chart above, an accounts receivable balance is
                      recorded in the Mint’s accounting records when new coins are
                      delivered to Mint headquarters for the coin exchange program.
                      During the close out of the John Quincy Adams Presidential
                      $1 coin program, Mint accounting personnel noticed a discrepancy.
                      The accounts receivable balance for the John Quincy Adams
                      $1 coins was $9,264; however, the vault did not contain any John
                      Quincy Adams $1 coins. Unable to resolve the difference, the Mint
                      reported the discrepancy to the Treasury OIG.

Internal Mint Report
                      In addition to reporting the discrepancy to our office, at the
                      direction of the Mint’s Chief Financial Officer, the Mint’s Planning,
                      Budget and Internal Control Division conducted an internal review
                      of its coin exchange program. The report, Review of Coin Exchange
                      Program Managed by Sales and Marketing (SAM), issued in
                      December 2010, identified a number of serious deficiencies in the
                      program’s controls and processes including inadequate segregation

                      Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)        Page 3
                        of duties, poor record keeping, inadequate oversight, and lack of
                        proper and timely reconciliations and clear SOPs. Specifically, the
                        report identified 4 findings and 13 recommendations. The findings
                        were as follows:

                            •   No coin exchange program reconciliations were performed
                                from 2005 through 2009.
                            •   The program lacked a complete set of records/documents to
                                demonstrate that all coins exchanged, cash proceeds, and
                                unused coins were accounted for in the records.
                            •   Coin machine exchange program functions were not properly
                                segregated and the results were not reviewed and approved
                                by management.
                            •   The program had deficiencies related to the physical security
                                of the vault and the coin machines.

                        As a result of these deficiencies, the report recommended that the
                        Mint restrict access and enhance security to the vault and coin
                        machines, finalize the SOPs, establish controls and oversight of
                        cash transactions, make timely deposits, adopt reconciliation
                        processes, and require reviews of documents retained to support
                        the program.

                        In response to one of the findings, the Mint attempted to reconcile
                        the coin exchange program activities. As a result of that effort, the
                        Mint identified and wrote-off in September 2010, a total
                        discrepancy, in the form of a loss, of $82,215 for unresolved
                        differences for coin programs dating back to 2008. That amount
                        represents differences the Mint identified from 22 coin programs in
                        all. 3 While the Mint has implemented corrective action plans in
                        response to its internal report, improvements are still needed.

Findings and Recommendations

Finding 1               Corrective Actions to Improve Physical Security Were Not
                        Fully Implemented

                        The Mint’s internal review identified deficiencies in physical
                        security controls over coin products including a large number of

3
    The 22 coin products included 10 $1 coin programs, 8 quarter programs, and 4 penny programs.

                        Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)       Page 4
                      employees with access to the vault, the lack of properly working
                      equipment to control vault access, and the lack of verification
                      procedures to ensure only authorized employees entered the vault.

                      SAM developed a corrective action plan to address the coin
                      exchange program’s physical security issues and implemented all
                      but one recommendation. The unimplemented recommendation
                      included adding a camera and additional card readers to record
                      employee access to the vault used to store the new coins at its
                      headquarters building and a controlled area outside the vault. The
                      Mint initially committed to installing these security upgrades by
                      December 31, 2010. However, a Mint official told us that the
                      enhancement was delayed pending implementation of other
                      security upgrades associated with the Treasury’s Personal Identity
                      Verification (PIV) system that was planned for March 2011. 4 As of
                      August 2011, a Mint official confirmed that the security upgrades
                      had not been implemented and estimated they would be completed
                      within 2 months.

                      Recommendation

                      We recommend that the Mint Director ensure that the vault
                      security enhancements are implemented in an expeditious manner.

                      Management Response

                      The Office of Protection installed an access card reader outside the
                      vault and a camera inside the vault, and both are fully operational.

                      OIG Comment

                      The actions taken by the Mint are responsive to the intent of the
                      recommendation and we verified that the access card reader and
                      camera have been installed and are fully operational.




4
 Homeland Security Presidential Directive 12: Policy for a Common Identification Standard for Federal
Employees and Contractors, August 27, 2004, established a mandatory, government-wide standard for
secure and reliable forms of identification issued by the federal government to its employees and
contractors.

                      Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)          Page 5
Finding 2                Other Control Weaknesses Need to Be Addressed

                         According to the Mint’s internal review report, the Mint did not
                         deposit unused coins timely, match cash proceeds and unused
                         coins to total sales orders timely, maintain coin exchange program
                         documentation, or perform reconciliations of the program from
                         2005 through 2009. In addition to other measures, the Mint
                         adopted an SOP in January 2011 entitled Coin Machine Order
                         Processing and Return of Circulating Coinage in response to its
                         internal review report. Although the SOP was intended to address
                         these findings, we believe that the procedures need to be further
                         strengthened to ensure the accuracy of recorded information and
                         reduce potential losses and thefts of coin products.

                         Deposit Delays

                         The SOP includes a “targeted” deadline that all deposits of unused
                         coins are made within 15 business days after a coin program ends.
                         As shown in Table 1, the elapsed time between the coin program
                         end date and the unused coins’ deposit date ranged from 25 to
                         137 days for the last 4 coin programs closed out in 2010.

    Table 1: Elapsed Days from Coin Program Closing to Deposits of Unused Coins

                                          Coin        Unused                         Unused
                                      Program            Coins         Elapsed        Coins         Unused
     Coin Program                 Closing Date    Deposit Date            Days        Value     Coins Count
     Yellowstone Quarter           7/26/2010      12/10/2010               137       $9,000          36,000
     Yosemite Quarter              9/20/2010      12/10/2010                81        1,795           7,180
     Grand Canyon Quarter         11/15/2010      12/10/2010                25        5,311          21,244
     Buchanan Presidential $1     11/18/2010      12/29/2010                41       14,371          14,371
     Source: Coin exchange program tracking documents, deposit documentation, and 2010 SAM calendar of
     events.

                         Mint officials told us that lengthy delays were due, in part, to local
                         banks’ unwillingness to accept large volumes of coins, especially
                         the $1 coins. In this regard, officials at these banks we interviewed
                         stated that they had limited vault space at their branches to store
                         the coins and limited resources to process the coins. 5
                         Nevertheless, we believe the above deposit delays are excessive.
                         To eliminate delays, the Mint should establish a definitive deadline
5
 The bank officials also stated that there was limited demand for $1 coins and that the banks return
most of them to the Federal Reserve Bank.

                         Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)                Page 6
                         for the deposits of unused coins when a program ends and ensure
                         the deadline is met.

                         No Regular Reconciliations

                         The SOP also had inadequate reconciliation procedures for the coin
                         programs. For each coin program, the Mint’s accounting
                         department records the deposits of exchanged cash received and
                         reduces the related accounts receivable balance. Outside official
                         accounting records, the accounting department manually tracks the
                         deposited coin program amounts and reduces the accounts
                         receivable balances in spreadsheets to support the monthly ending
                         balances. However, there is no step in this process for either the
                         accounting department or SAM to reconcile the accounting
                         department’s monthly balances to SAM’s sales inventory balances.
                         At month-end, the accounting department’s accounts receivable
                         balances need to be compared to SAM’s sales order inventory
                         balances to identify any differences for prompt determination and
                         resolution of the related cause(s) of the differences. Currently,
                         reconciliations are only performed on balances kept by SAM and
                         accounting after a coin program ends. 6

                         As previously discussed, deposits of unused coins are often
                         significantly delayed for closed programs and reconciliations are not
                         performed timely, resulting in inaccurate accounting balances.
                         Because of the delays, the reconciliation process, particularly with
                         regard to identifying the causes of variances, is more difficult, if
                         not impossible. Also, the Mint was not aware that coins were
                         unaccounted for until months and, in some cases, years after a
                         program closed.

                         Recommendations

                         We recommend that the Mint Director:

                         1. Enhance the coin exchange program SOP to require that unused
                            coins be deposited within 15 days of a completion of a coin
                            program.



6
    U.S. Mint SOP, section 2.5.1, Return of Discontinued Circulating Coins, January 10, 2011.

                         Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)       Page 7
    Management Response

    SAM updated its SOP to mandate that unused coins from
    closed out coin programs be deposited at a designated bank
    within 15 days after a program ends. The Mint also purchased a
    coin rolling machine that has streamlined the preparation
    process for depositing unused coins within the 15-day time
    period. Because of these improvements, SAM has deposited all
    unused coins within 15 days of the program completion for
    remaining fiscal year 2011 coin programs.

    OIG Comments

    The actions taken by the Mint are responsive to the intent of
    the recommendation and we verified that the SAM SOP was
    updated as stated and the Mint deposited unused coins timely.

2. Ensure that reconciliations between the accounting
   department’s accounts receivable balances and SAM’s sales
   records are performed monthly, and any differences identified
   are resolved timely (i.e., the cause(s) of the differences are
   determined and appropriate actions are taken).

    Management Response

    SAM updated its SOP to require the SAM Retail Sales Manager
    or their designee, in conjunction with Accounting, to perform
    monthly reviews from the start of each program of all applicable
    Coin Exchange Program documentation maintained by SAM.
    The Chief of the Accounting Division will ensure that all
    differences are timely and properly resolved.

    OIG Comments

    The Mint’s actions met the intent of the recommendation. We
    verified that the SAM SOP was updated as stated and monthly
    reviews of coin exchange documentation were performed
    through October 2011.




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 8
                            ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. The major contributors to this report are listed in
appendix 3. If you have any questions, please contact me at
(202) 927-5904, or Kathy Johnson, Audit Manager, at (202) 927-
8783.

/s/
Kieu T. Rubb
Director, Manufacturing and Procurement Audits




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 9
Appendix 1
Objectives, Scope, and Methodology




The objectives of our audit were to determine whether the United
States Mint (Mint) has established appropriate accountability and
security of coin exchange program activities. We conducted our
audit at the request of the Treasury Office of Inspector General’s
Office of Investigations. As part of our work, we reviewed the
actions taken in response to an internal Mint report of the coin
exchange program controls. That report was entitled Review of
Coin Exchange Program Managed by Sales and Marketing (SAM).

To accomplish these objectives, we (1) reviewed the internal Mint
report, the Mint’s corrective action plan, and related standard
operating procedures; (2) visited Mint headquarters in Washington,
D.C., including the vault used for this program and the protection
command center, to observe inventory, currency handling, and
security procedures over the coin exchange program; and (3)
interviewed Mint employees. We conducted our fieldwork between
November 2010 and November 2011.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 10
Appendix 2
Management Response




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 11
Appendix 2
Management Response




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 12
Appendix 2
Management Response




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 13
Appendix 3
Major Contributors to this Report




Katherine E. Johnson, Audit Manager
Cecilia K. Howland, Auditor-In-Charge
Justin M. Walker, Auditor
Michael R. Shiely, Auditor
Michael J. Maloney, Referencer




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 14
Appendix 4
Report Distribution




Department of the Treasury

    Deputy Secretary
    Treasurer of the United States
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

United States Mint

    Deputy Director
    Acting Chief Financial Officer
    Audit Liaison

Office of Management and Budget

    OIG Budget Examiner




Mint’s Coin Exchange Program Lacked Proper Controls (OIG-12-018)   Page 15
